WAIVER

Supreme Court of the United States

No. 20-617
California Virtual Academies vy. California Public Employment Relations
Board
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

}{ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Real Party in Interest, CALIFORNIA TEACHERS ASSOCIATION _

 

3M Lama member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

  
     
  

Signature

DateDecember 1, _ _

(Type or print) Name_Jacob F. Rukeyser _
i Mr. O Ms. O Mrs. O Miss

Firm California Teachers Association, Legal Department

 

City & State Burlingame, California Zip 94010
Phone 650-552-5414

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Paul Christian Minney, Esq. J. Felix De La Torre, Esq.
YOUNG, MINNEY & CORR LLP PUBLIC EMPLOYMENT RELATIONS BOARD
655 University Ave., Suite 150 1031 18th Street
Sacramento, California 95825 Sacramento, California 95811

Obtain status of case on the docket. By phone at 202-479-3084 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
